U'Q15<i
NO. 20-6269

IN THE SUPREME COURT OF THE UNITED STATES

Angela de Jesus Concepcion,
Petitioner,

V
UNITED STATES OF AMERICA,
Respondent.

On Petition for Writ of Certiorari to the United States
Court of Appeals for the Third Circuit

PETITION FOR REHEARING

Petitioner angela de de Jesus Concepcion in Propria Persona
Angela de Jesus
662 Snake Den Road
West Milford, New Jersey 07480

Received-!
JAN - 7 2021

SISigIggg' I
L

PETITION FOR REHEARING
Pursuant to Supreme Court Rule 44.1 this petition for rehearing is filed within 25
days of this Court’s decision in this case.Pursuant to Sup. Ct. R. 44.2 petitioner Angela de
Jesus Concepcion ("petitioner"or "Ms de Jesus ") respectfully petitions this Court for an
order (1) granting rehearing, (2) vacating the Court's December 7,2020 order (3) and
remanding to the Third Circuit for only consideration to an evidentiary hearing.
Supreme Court Rule 44.2 in pertinent part states that grounds for a petition for
rehearing "shall be limited to intervening circumstances of a substantial or controlling effect
or to other substantial grounds not previously presented." The Betterman’s court in dicta
wrote “We have never decided whether the Due Process Clause creates an entitlement to a
reasonably prompt sentencing hearing. Today’s opinion leaves us free to decide the proper
analytical framework to analyze such claims if and when the issue is properly before us.
(JUSTICE SOTOMAYOR). Petitioner’s claim met the threshold in Betterman. Petitioner
humbly presents that her case is part of a broader question that will affect other defendants
in the context of assistance of counsel and undue delay in sentencing. Thus , she presents to
the court that Justice will be served if once and for all the court answer the question or
remand to the Third Circuit to consider whether the right to a prompt sentencing exists with
the assistance of counsel and Due Process in accordance with the court’s opinion in
Betterman.

STATUTORY PROVISIONS INVOLVED
This case involves 28 U.S.C. § 2255, the primary avenue for collateral review of federal
judgments and the Federal Constitutional Provisions of the Fifth Amendment to the United
States Constitution and the Sixth Amendment Right to an effective assistance of counsel.

Ms de jesus is aware that this Honorable Court on the past has pointed out in dicta on,
Betterman v. Montana No. 14-1457 that “ whether the Due Process Clause creates an
entitlement to a reasonably prompt sentencing hearing is an open question.” This court has
emphasized on the past that a defendant Due Process rights may be violated by oppressive
delay in sentencing. The District court and the Court of Appeals disregarded this court’s
decision in Betterman. Petitioner’s case presents an question of exceptional importance for
other defendants. Petitioner prays the court to answer the open question of whether delay in
sentencing and judgement violates Due Process and the assistance of counsel.
She recognizes that the court might have denied certiorari because the case was not
properly presented so she is not asking the court to review these issues but to remand for (l)an
evidentiary hearing on her ineffective assistance of counsel claim and (2) to remand for an

evidentiary hearing because both the District court and the Court of Appeals used the wrong
standard of law in deciding her case. The district court ruled that the issue could not be
presented in the motion 2225 because it was already presented in direct Appeal but is not true.
No delay in sentencing and judgement was presented under the right to assistance of counsel
or Due Process . Nevertheless, the Third Circuit took a different approach and said that the
issue was procedural defaulted because it was not presented on direct appeal. So it seems that
both courts have a contrary view of what the standard of law is in this case. It is well known
that claim of ineffective assistance of counsel are mostly presented in post-conviction motions
and not on direct appeals. Petitioner respectfully submits that she was deprived of fundamental
fairness and the assistance of counsel not only during trial but also at sentencing under
pretenses masqueraded by defense counsel. Petitioner’s oppressive deprivation of liberty
under a lie shocks the conscience when she planned her life counting on a false credit.

As grounds for this petition for rehearing, petitioner states the following:
1. Ms de Jesus was deprived of an effective assistance of counsel
This colloquy took place during trial:
THE COURT: So I have no reason to not give her
the benefit of that. But I think that might alleviate the concerns of the Government,
and I think it would be fair--any period of house arrest would be obviously credited to
any eventual imprisonment term I might impose upon her. (Transcript at 643)
During months defense counsel masqueraded the court’s statement as true and
even recommended to Ms. de Jesus to follow all the conditions as to get her credit.
Nevertheless at the time of sentencing the crude misrepresentation by defense counsel
came to light when the court denied the statement.
As stated on the record:
TRIAL COUNSEL: Well, my client recalls that at
that at that time Your Honor indicated that you
were giving her house arrest, but that she would
get credit for the time she was in.
THE COURT: I never said that. I challenge that.
(Sentencing Transcript 49-9 to 49-13)

When considering a § 2255 motion, a district
court must “accept the truth of the movant’s factual
allegations unless they are clearly frivolous on the

3

basis of the existing record.” United States v. Tolliver,
800 F.3d 138, 141 (3d Cir. 2015) (quoting United States
v. Booth, 432 F.3d 542, 545 (3d Cir. 2005)).
Additionally, a district court must hold an evidentiary
hearing on the motion if “the files and records do not
show conclusively that [the movant] was not entitled to
relief.” Id. quoting Solis v. United States, 252 F.3d
289, 294 (3d Cir. 2001). Ms. de Jesus did not get an evidentiary hearing

Glover and Williams presented that defendant’s right to effective assistance of
counsel protects against being deprived, due to counsel’s errors, of any substantive or
procedural right to which the law entitles even, if the deprivation consists of but one day of
incarceration more than what the law requires. Thus, deprivation of “any substantive or
procedural right” caused by a breach of the standard of care satisfies Strickland’s prejudice
prong in this case.

2. De Jesus respectfully submits that she was improperly denied an evidentiary
hearing in which she could establish her claim of ineffective assistance of counsel.
Petitioner humbly presents to this Honorable Court that it was not ok for the court to make
that statement if the credit was not going to be honored and she was deprived of an
effective assistance of counsel when defense counsel engaged in misrepresentation during
months. Petitioner was deprived of liberty under oppressive delay in sentencing and
judgment and her right to appeal was delayed. Petitioner have already served her sentence
and she just wants to move on with her life and attend law school to help disadvantaged
communities. Unfortunately her case is still carrying collateral consequences as she was
denied her family visa petition from her son and facing deportation, it is undeniable that
defense counsel actually denied the record. Nevertheless , the granting of an evidentiary
hearing does not mean that petitioner might be successful in her motion but this fact is
irrelevant when the record shows the she was deprived of fairness and justice by defense
counsel multiples incompetent actions during trial and sentencing. Petitioner’s sentence
was imposed in violation of sixth Amendment right to effective assistance of counsel.

H

CONCLUSION
For the foregoing reasons, petitioner Angela de Jesus Concepcion prays that this
Court (1) grant rehearing of the order denying her petition for writ of certiorari in this
case,(2) vacate the Court's December 7, 2020, order denying certiorari, and (3) remand to
the Third circuit for an opportunity to just an evidentiary hearing.

Respectfully submitted,

Dated:

W9W
Angela de JesusJPcyadepcion in Propria Persona

b

NO. 20-6269

IN THE SUPREME COURT OF THE UNITED STATES

Angela de Jesus Concepcion,
Petitioner,
V.
UNITED STATES OF AMERICA,
Respondent.

On Petition for Writ of Certiorari to the United States
Court of Appeals for the Third Circuit

CERTIFICATE IN PROPIA PERSONA
As the petitioner of this case, I hereby certify that this petition for rehearing is presented in
good faith and not for delay.

Angela de Jj

(o

•oncepcion

NO. 20-6259
IN THE SUPREME COURT OF THE UNITED STATED

Angela de Jesus Concepcion,
Petitioner,
V.
UNITED STATES OF AMERICA,
Respondent.

On Petition for Writ of Certiorari to the United States
Court of Appeals for the Third Circuit

CERTIFICATE OF SERVICE
I, Angela de Jesus Concepcion In Propria Persona, certifies that, pursuant to Rule 29.1
served the preceding Petition for Rehearing on counsel for the Respondent (1) by
mailing, on December
^_____, 2020, a copy of these documents via priority
United States mail to:
The Honorable Jeff Wall
Solicitor General of the United States
Room 5614, Department of Justice
950 Pennsylvania Avenue, N.W.
Washington, D.C. 20530

Angela de Jesus Gdncepcion

41-

Supreme Court of the United States
Office of the Clerk
Washington, DC 20543-0001
December 7, 2020

Scott S. Harris
Clerk of the Court
(202) 479-3011

Mr. Adam Wayne Toraya
Adam W. Toraya, Esq.
24 Commerce Street, #1000
Newark, NJ 07102

Re: Angela.de Jesus-Concepcion
v. United States
No. 20-6259

Dear Mr. Toraya:
The Court today entered the following order in the above-entitled case:
The petition for a writ of certiorari is denied.

Sincerely,

Scott S. Harris, Clerk

